ERTIFICATE OF WORD COUN1
No. TBD
Michael Aaron Strickland,
Petitioner,
v.
State of Oregon,
Respondent.

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
That I am over the age of 18 years and am not a party to this action. I am an employee of
. the Supreme Court Press, the preparer of the document, with mailing address at 1089. Commonwealth_
Avenue, Suite 283, Boston, MA 02215.
That, as required by Supreme Court Rule 33.1(h), I certify that the MICHAEL AARON
STRICKLAND PETITION FOR WRIT OF CERTIORARI contains 3923 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

January 25, 2021

SCP Tracking: Barnes-700 South Flower St., Suite 1000-Cover White

